                                                                                 I1
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11
                   7 .



     Case Nurnbgy: 105100061                                                                  Page 1 of 1



          OIG opened this investigation based upon allegations that surfaced during a proactive review. A
          prograh Officer (P.o.)' wrote information in the e-jacket diary note of a grant award2which
          stated fhe Chief Academic Officer (CAO) and Project Director of a School ~ i s t r i csubmitted
                                                                                                 t~       a
          letter, dated              , advising the Urban Systemic Program (USP) efforts had ceased and
          closedldown as of                   . The notes written by the P.O. stated there had been a budget
          request'and strategic plan submitted indicating that the USP would continue through the official
          end datk of                   . The P.O. commented that the school district was submitting
          inconsistent and misleading information about the USP effort.

          NSF OIG Audit Division is currently engaged in an audit of the School District. Therefore, OIG
          ~nvestihationsDivision will close this matter and wait to see if the audit findings indicate a
          matter!for civil or criminal action.

          Accordingly, this case is closed.




 NSF OIG Form 2 (1 18/02)
